<html>
<title> - CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR PROMISES OF ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, THE LONGEST HELD UNITED STATES CIVILIAN IN OUR NATION'S HISTORY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
           CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR
                 PROMISES OF ASSISTANCE IN THIS CASE OF
            ROBERT LEVINSON, THE LONGEST HELD UNITED STATES
                    CIVILIAN IN OUR NATION'S HISTORY

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 148

                               __________

                           FEBRUARY 11, 2016

                               __________

                           Serial No. 114-142

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 _____
                                 
                                 
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
  98-603 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 148, Calling on the government of Iran to fulfill their 
  promises of assistance in this case of Robert Levinson, the 
  longest held United States civilian in our Nation's history....     2
  An amendment in the nature of a substitute to H. Res. 148 
    offered by the Honorable Ileana Ros-Lehtinen, a 
    Representative in Congress from the State of Florida, and 
    chairman, Subcommittee on the Middle East and North Africa, 
    and the Honorable Theodore E. Deutch, a Representative in 
    Congress from the State of Florida...........................     6

                                APPENDIX

Markup notice....................................................    16
Markup minutes...................................................    17
Markup summary...................................................    18
              CALLING ON THE GOVERNMENT OF IRAN TO FULFILL

              THEIR PROMISES OF ASSISTANCE IN THIS CASE OF

                ROBERT LEVINSON, THE LONGEST HELD UNITED

                STATES CIVILIAN IN OUR NATION'S HISTORY

                              ----------                              


                      THURSDAY, FEBRUARY 11, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 1:45 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    We meet today pursuant to notice to mark up the ranking 
member's bipartisan resolution aimed at securing the return of 
Robert Levinson, the longest-held United States hostage in our 
Nation's history.
    And so as your offices were previously notified, it is the 
intent of the Chair to consider the following items en bloc 
which members have before them--House Resolution 148, calling 
on the Government of Iran to fulfill its repeated promises of 
assistance in the case of Robert Levinson, and Ros-Lehtinen-
Deutch Amendment 31 in the nature of a substitute to House 
Resolution 435.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    Ms. Ros-Lehtinen. Without objection, these items are 
considered as read and will be considered en bloc. After I make 
some opening remarks and the ranking member speaks, we will be 
glad to recognize any other members seeking recognition, and 
without objection all members may have 5 days to submit 
statements for the record on today's business.
    The Chair recognizes herself. First, I would like to 
welcome Christine, Robert Levinson's wife, and their son, Dan, 
in the audience as well.
    I wish I could say that it is a pleasure to see you today 
but, unfortunately, seeing you here at this markup means that 
it is another two birthdays and another two anniversaries that 
you have missed with Bob for 3,261 days your family has had to 
cope with not knowing where he is or even how he is.
    But just know that we will not give up the fight to bring 
Bob home to you and all of his loved ones and friends and we 
will continue to demand that Iran honor its commitment and we 
will continue to press the administration to help bring Bob 
home.
    We will continue to raise this issue ourselves, which is 
why I am pleased to join the leader in this cause, Ted Deutch, 
in introducing this resolution here before us today yet again.
    As South Florida residents, you couldn't have asked for a 
better and more determined representative for your cause than 
Ted Deutch.
    I have seen how important Bob is to Ted. His number-one 
goal is reuniting him with you, the members of his family. I 
can only say that we all support Ted in his efforts.
    We will continue to work with Mr. Deutch in his fight for 
your family, and because it is an issue that is so dear to Ted 
I want to yield the balance of my time to give Ted the 
opportunity to speak as long as he wants.
    Mr. Deutch. Thank you very much, Madam Chairman.
    I want to--I would like to begin by thanking for your 
vigorous commitment to bringing awareness to Bob Levinson's 
case and always pushing for Bob's return.
    I want to thank the many members of the subcommittee who 
have co-sponsored this resolution. I would also like to welcome 
Christine and Dan to our markup today.
    Last month, we received word that our Government negotiated 
for the release of four Americans in prison in Iran. It was 
welcome news.
    These are Americans who were wrongfully held and the move 
brought comfort to the families, corrected an injustice and 
made very clear that the United States does not forget about 
its own people.
    Over the years, I have worked closely with Congressman 
Kildee, Congressman Huffman and Congressman Labrador to 
continue to raise Bob's case as well as those of Amir Hekmati, 
Saeed Abedini and Jason Rezaian.
    And I am so pleased that each of their constituents has 
returned home to the United States to be with their family and 
their friends.
    Their nightmares are over. Unfortunately, this is not the 
case for the Levinsons. For Bob, now the longest-held civilian 
hostage in our history, and for his family, this nightmare 
continues.
    March 9th will mark 9 years since Bob disappeared on Iran's 
Kish Island. That's 9 years of birthdays with his seven 
children, anniversaries with his wife, Christine, weddings, the 
births of three of his four grandchildren and many other 
important milestones that should have been--should have been 
joyous occasions for the Levinsons that should have been 
celebrated together as a family and should have created happy 
memories that one carries with them for their entire life.
    Today, it is an honor to have Bob's wife, Christine, and 
his eldest son, Dan, here. This is a family who for 9 years has 
never given up and has worked tirelessly to bring their husband 
and father home.
    Your family deserves to feel the same elation and relief as 
the families of those other Americans who were released and 
rest assured we will not give up until Bob is returned.
    Bob dedicated his life to serving this country, spending 28 
years with the FBI and earlier with the DEA. Bob loves this 
country dearly and now this country must come through for Bob.
    There have been moments of optimism over the years. The 
Levinson family has received proof of life in the form of 
pictures and video.
    We know that throughout the course of nuclear negotiations 
with Iran, Secretary Kerry, Under Secretary Sherman and others 
raised Bob's case at every single meeting.
    But that is not enough. Whatever information Iran has about 
Bob needs to be provided now so that Bob can be brought home.
    The resolution before us today calls on Iran to follow 
through on its repeated promises of assisting the United States 
in locating Bob.
    I am proud to introduce this resolution with my colleague 
and good friend, Chairman Ros-Lehtinen, as well as our fellow 
Floridians, Congressman Diaz Balart and Congressman Wasserman 
Shultz.
    The resolution recognizes that despite our many 
disagreements with Iran, our Government and those of our 
partners and allies must continue to press Iran for information 
about Bob at every opportunity.
    Both President Obama and Secretary Kerry have repeatedly 
expressed their commitment to securing Bob's release. After the 
release of the other Americans, President Obama stated on 
national television that, and I quote,

        ``Iran has agreed to deepen our coordination as we work 
        to locate Robert Levinson, missing from Iran for more 
        than 8 years. Even as we rejoice in the safe return for 
        others we will never forget about Bob. Each and every 
        day and especially today, our hearts are with the 
        Levinson family. We will not rest until their family is 
        whole again.''

    Today, Iran seeks to be part of the international 
community. But let us make no mistake, a country that sponsors 
terrorism, that threatens to wipe other countries off the map 
and that holds innocent Americans hostage will not be welcomed 
into the community of responsible nations.
    For anyone who is watching this markup online, for anyone 
in the audience, I encourage you to tweet about Bob Levinson, 
using the hashtag #whataboutbob.
    We have got to keep talking about this case. We have got to 
raise the level of awareness and we must encourage our 
Government and the governments of our allies and anyone who can 
be helpful to continue to work tirelessly to find Bob and to 
bring him home.
    Christine and Dan, please know that the United States 
Congress stands with you. We will not forget about Bob. And I 
thank my colleagues for the support of this very important 
resolution today, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    As always, when you speak about this case you do it in such 
an eloquent manner. Thank you so much for sharing your thoughts 
with us.
    Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair.
    I want to commend you for bringing this important timely 
legislation before the subcommittee today and I admire your 
dedication and Mr. Deutch's dedication in particular and other 
members of this committee who have displayed basically being 
relentless about bringing to light what happened and where 
Robert Levinson is and to bring him home to his family who, as 
you have mentioned, is here today.
    And as has been mentioned, Mr. Levinson is now the longest-
held U.S. civilian in American history and Iranian officials 
must live up to their commitments to work through the case and 
release the results of the investigation into Mr. Levinson's 
disappearance to the United States.
    While I recognize that U.S. officials have repeatedly 
called for the safe return of Mr. Levinson and requested 
Iranian assistance to help a fellow American citizen, the 
administration and our allies must do more.
    So I join with both Chair Ros-Lehtinen and Mr. Deutch in 
urging the President and our allies to continue pressing Iran 
on the case of Robert Levinson at every opportunity, despite 
our many unresolved differences.
    I urge my colleagues to support the legislation and I yield 
back my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    Let me, first of all, express my deep concern to the 
Levinson family who are here today and to thank my colleague, 
Mr. Deutch especially, and you, Madam Chairman, for keeping 
this issue at the forefront of our relationship, evolving as it 
is, with Iran.
    It is never okay for a U.S. citizen to be detained without 
charge, without explanation. Mr. Levinson is the longest-held 
American civilian in our Nation's history.
    Accountability is important. So if Iran wants to take its 
place in the family of nations, if it wants to end its own 
self-inflicted isolation, it must account for Bob Levinson.
    Thank you both for your leadership.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Zeldin.
    Mr. Zeldin. I thank the chairwoman and ranking member for 
your leadership to try to not only get more information on Mr. 
Levinson but to hopefully eventually be able to bring him home.
    I had the pleasure of speaking with the family of Mr. 
Levinson before the start of today's markup and it is clear 
that they are as determined as ever to get answers to questions 
left long overdue.
    Just last week, Congressman Mike Pompeo, Frank LoBiondo and 
I went to the Iranian interests section here in Washington, DC, 
to file visa applications.
    We sent a letter to the Ayatollah. Part of that request is 
to get more information on Mr. Levinson's whereabouts. 
Hopefully, we'll have a positive response and I just want to be 
part of working with the chairwoman and the ranking member to 
hopefully bring Mr. Levinson home.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Zeldin.
    Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman.
    I want to not only voice my support but certainly redouble 
our efforts to continue to keep this particular issue that you 
and our good friend, Mr. Deutch, continues to raise on a 
regular basis.
    Fundamentally, that if we allow the American people to 
believe that we are going to tolerate a regime that not only 
has unbelievable humanitarian atrocities that continue to get 
leveled on an almost daily basis but that we are going to 
tolerate it as an American people, it sends the wrong message.
    And so I just want to thank you for your leadership, thank 
Mr. Deutch for his continued involvement on behalf of his 
constituency and we will all of us join together in a 
bipartisan way to support this effort.
    Yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Does any other member seek recognition on this measure?
    Hearing no further requests for recognition, the question 
occurs on adopting the items under consideration en bloc.
    All those in favor say aye.
    [Chorus of ayes.]
    All opposed say no. In the opinion of the Chair, the ayes 
have it and the en bloc items are approved.
    Without objection, House Resolution 148 as amended will be 
reported to the full committee in the form of a single 
amendment in the nature of a substitute and staff is directed 
to make any technical and conforming changes.
    I want to thank all of the members and staff for their 
assistance and cooperation that went in today's important 
markup and we will move on to regular order of our 
subcommittee.
    And I want to--we want to once again thank the Levinson 
family for appearing before us. Thank you very much.
    [Whereupon, at 2:09 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              


                                 <all>
</pre></body></html>
